                                                    Oﬃce of Inspector General
                                    EXPORT-IMPORT BANK of the UNITED STATES




                     S E M I A N N UA L 

              R E P O RT TO C O N G R E S S 



October 1, 2007 – March 31, 2008
Second Semiannual Report
811 Vermont Avenue, NW, Suite 978
Washington, DC 20571

Telephone 202.565.3923
Facsimile 202.565.3988
Michael W. Tankersley              EXPORT-IMPORT BANK

Inspector General                   of the UNITED STATES


April 30, 2008

I am pleased to present the second Semiannual Report to Congress of the Office of Inspector
General (OIG) of the Export-Import Bank of the United States (ExIm Bank) covering the
reporting period of October 1, 2007 to March 31, 2008. The ExIm Bank OIG has identified two
strategic objectives for the 2008 fiscal year that are aligned with the Inspector General’s central
mission under the Inspector General Act of 1978:

    •	 Improve the economy, efficiency and effectiveness of ExIm Bank export credit programs
       and operations.

    •	 Promote integrity among all participants in ExIm Bank’s export credit programs and
       operations.

These objectives were advanced during the reporting period by:

        Initiating evaluations and investigations of pending and new credit fraud cases affecting
        ExIm Bank, as well as initial hotline referrals, with the assistance of a senior investigator
        detailed from the Federal Deposit Insurance Corporation OIG.

        Working with ExIm Bank’s Audit Committee and management to improve policies and
        procedures addressing the fraud risk associated with the ExIm Bank’s export credit
        programs.

        Working with management and ExIm Bank’s Audit Committee to complete ExIm Bank’s
        annual financial statement audit and submission of related documentation for
        government-wide reporting with the support of Small Business Administration OIG
        senior auditors.

        Undertaking a detailed evaluation of ExIm Bank’s economic impact procedures in
        response to a request from Congress, a Government Accountability Office report released
        in October 2007 and a request from ExIm Bank management.

The positions of Counsel to the Inspector General and Assistant Inspector General – Audit were
filled shortly before the date of this letter, providing necessary expertise to support the expansion
of the scope and quality of the work of this office in future periods. I look forward to providing
future reports to Congress of the progress of this new office.

Sincerely,


Michael W. Tankersley
Inspector General
Mission of Export-Import Bank and the Office of Inspector General

The Export-Import Bank of the United States (ExIm Bank) is the official export
credit agency of the United States. ExIm Bank's mission is to assist in financing
the export of U.S. goods and services to international markets. ExIm Bank
enables U.S. companies — large and small — to turn export opportunities into
sales that help to maintain and create U.S. jobs and contribute to a stronger
national economy.

The Office of lnspector General (OIG) at ExIm Bank is an independent office
within the ExIm Bank that seeks to support ExIm Bank's overall mission and
goals while helping to protect it from fraud, waste and abuse. The Inspector
General Act of 1978 (IG Act) states that the Inspector General is responsible for
conducting audits, inspections and investigations and recommending policies
and procedures that promote economic, efficient and effective use of ExIm Bank
resources and programs that prevent fraud, waste, abuse and mismanagement.
The IG Act also requires the Inspector General to keep the Chairman of ExIm
Bank and Congress fully and currently informed about problems and deficiencies
relating to the administration of ExIm Bank programs and operations and the
necessity for corrective action.

This semiannual report describes the principal actions undertaken by the OIG
during the reporting period of October 1, 2007 to March 31, 2008.


Initiation of ExIm OIG Operations

The OIG of ExIm Bank began its existence on August 6, 2007 with the swearing
in of ExIm Bank’s first Inspector General. During the reporting period, the ExIm
Bank OIG’s activities undertaken to support the commencement of the full range
of operations required by the IG Act included:

     (i) Continuing work to develop an understanding of ExIm Bank’s programs
     and systems through communications with the Board of Directors, senior
     management and staff;

     (ii) Continuing work with ExIm Bank staff as well as other government
     agencies to identify the particular program, operational and financial
     opportunities, challenges and risks facing ExIm Bank;

     (iii) Reaching out to members of the inspector general community for advice
     and support relative to organizing the ExIm OIG;

     (iv) Developing a financial plan for the ExIm Bank OIG as reflected in its
     budget request for the 2009 fiscal year, as well as to determine spending




                                         2

     requirements to support the audit, evaluation and investigative work
     required by ExIm Bank and the IG Act;

     (v) Developing and launching the OIG’s web presence and hotline at
     www.ExIm.gov/oig with the support of ExIm Bank information technology
     (IT) staff;

     (vi) Meeting with the ExIm Bank’s staff in small departmental gatherings to
     explain the responsibilities and objectives of the OIG and how ExIm Bank
     staff can assist and benefit from the operations of the OIG;

     (vii) Developing position descriptions for counsel, audit and investigative
     senior OIG staff in view of the available resources and anticipated demands
     on this office and commencing recruitment efforts; and

     (viii) Beginning to develop strategic plans, policies and procedures to
     support the operations of the OIG.

The ExIm OIG was required to respond to several statutory mandates during its
initial months of operation, as well as responding to requests from Congress,
hotline complaints and fraud investigation referrals from ExIm Bank staff. These
are described below.

                          Audits and Evaluations
Completed Audits

2007 Financial Statement Audit. An independent accounting firm obtained by
ExIm Bank performed the external audit of its financial statements for the 2007
fiscal year and issued an unqualified opinion. The ExIm Bank OIG, with support
from staff of the Small Business Administration OIG, monitored the conduct of
the audit and actively participated in completing the annual audit process and
submitting ExIm Bank’s financial statements and other mandated reports to the
Treasury Department. However, due to the limited time and available OIG staff
to perform the required oversight duties according to generally accepted
government auditing standards, the OIG disclaimed an opinion on the 2007
financial statements.

Federal Information Security Management Act (FISMA) Audit. The OIG provided
oversight to the audit of ExIm Bank’s information security program and practices
required by FISMA, which was completed by a contractor provided by the U.S.
Department of the Treasury, Bureau of Public Debt. The objective of this audit
was to evaluate the effectiveness of security controls and techniques for ExIm
Bank information systems and to evaluate compliance by ExIm Bank with FISMA
and related information security policies, procedures, standards and guidelines.




                                         3

This audit concluded that the effectiveness of ExIm Bank controls and techniques
evaluated was satisfactory or better in all categories.


Other Audit Activity

Audit of Medium Term Credit Programs. The OIG’s assessment of ExIm Bank
potential audit subjects and discussions with management and the Audit
Committee resulted in the OIG determining to undertake a performance audit of
ExIm Bank’s medium term export credit insurance and guarantee programs
(Medium Term Programs). The Medium Term Programs were identified by
management and the Audit Committee as having incurred higher than expected
losses in recent years. The Medium Term Programs were also the targets of
significant fraud schemes that have resulted in multiple indictments and plea
agreements during the reporting period.

The proposed audit is intended to produce detailed findings regarding the
efficiency and effectiveness of all aspects of the Medium Term Programs and
their IT platform, as well as specific recommendations to management to address
deficiencies and opportunities for improvement. In order to obtain the benefits of
relevant subject matter expertise and immediate staffing availability, the OIG
plans to conduct this audit using a contractor, under the direction of the Assistant
Inspector General for Audit and supported by a senior audit manager loaned by
the U.S. Department of Agriculture OIG. The OIG anticipates completing this
audit prior to September 30, 2008.

Relationship Between OIG and Audit Committee. ExIm Bank’s Bylaws provide
for an Audit Committee consisting of members of the Board of Directors other
than the Chairman and Vice-Chairman. The Bylaws state that:

     The Audit Committee, reporting to the Board of Directors, shall be
     responsible for providing assistance to the Board in fulfilling its accounting
     and reporting responsibilities, determining that ExIm Bank has adequate
     administrative and financial controls, reviewing the financial statements
     prepared by management for distribution to Congress and the public, and
     providing direction over the internal audit function and the independent
     accountants.

The Inspector General and the Audit Committee devoted substantial time during
the reporting period to evaluating and discussing effective ways for each of them
to exercise their respective duties in accordance with applicable law for the
benefit of ExIm Bank. The OIG and the Audit Committee addressed several
matters of common interest in a mutually supportive manner intended to be
consistent with the independence of the OIG and the working relationship
principles for agencies and offices of inspector general developed by the
President’s Management Council, the President’s Council on Integrity and



                                         4

Efficiency and the Executive Council on Integrity and Efficiency. These projects
included the Audit Committee’s review of ExIm Bank’s 2007 financial statements
prepared by management, evaluation of ExIm Bank’s outsourced internal
auditing function and the selection of a new contractor to fulfill that requirement
for 2008 and subsequent fiscal years.

Assessment of ExIm Bank Audit Universe. The OIG continued work, with advice
and support from other members of the IG community and in consultation with
ExIm Bank management and the Audit Committee, to identify and prioritize audit
and evaluation subjects relative to ExIm Bank’s operations and financial reporting
that would assist ExIm Bank by (i) reducing risks and increasing integrity in ExIm
Bank’s export credit programs and operations; (ii) improving the efficiency and
effectiveness in the delivery of ExIm Bank export credit programs; (iii) enhancing
the ExIm Bank’s internal controls; and (iv) improving transparency and
accountability in ExIm Bank decision-making.



Evaluation

Report to Congress Regarding Trinidad Ethanol Project. In 2005 Congress
directed that the ExIm Bank Inspector General “provide a written analysis to the
Committees on Appropriations and other appropriate committees, including the
Senate Finance Committee, within 90 days of appointment” addressing three
questions:

     (1) 	   Whether the medium-term credit insurance provided by ExIm Bank
             in support of the development of an ethanol plant in Trinidad and
             Tobago (Trinidad Project) met the conditions of Section 2(e)(4) or
             any other provision of the Export-Import Bank Act of 1945 (Charter);

     (2) 	   Whether ExIm Bank routinely uses “value added” methodology to
             determine whether a proposed loan guarantee or export credit meets
             the statutory test of substantial injury, as specified in Section 2(e)(4)
             of the Charter.

     (3) 	   Whether it is appropriate for ExIm Bank to use value added
             methodology in making determinations of substantial injury.

The Inspector General, with support from the FDIC OIG, commenced work on
the requested analysis promptly after taking office on August 6, 2007 and
delivered the requested analysis to the Congress on November 5, 2007. The
analysis concluded:

     (1)     As a legal matter, the Trinidad Project met the conditions of Section
             2(e)(4) of the Charter and other related provisions pursuant to



                                          5

             procedures authorized by ExIm Bank and its Board of Directors in the
             exercise of their discretion.

     (2) 	   Value added methodology is not routinely used by ExIm Bank to
             determine whether or not a proposed loan guarantee or export credit
             meets the statutory test found in Section 2(e)(4) of the Charter, and
             this methodology had not been relied upon in approving the Trinidad
             Project.

     (3) 	   Based upon the limited procedures performed in support of the
             analysis, the Inspector General concluded that the use of value
             added methodology with respect to the Trinidad Project would not
             have been appropriate.

Further Review of Economic Impact Procedures. In view of the work undertaken
by the OIG in preparing its report on the Trinidad Project described above,
management requested that the ExIm Bank OIG undertake a further review of
the recommendations made in a report prepared by the U.S. Government
Accountability Office (GAO), Export-Import Bank – Improvements Needed in
Assessment of Economic Impact (GAO-07-1071), and provide management with
focused recommendations for improvements to ExIm Bank’s economic impact
review policies and procedures. This project was initiated during the reporting
period and is expected to be completed prior to September 30, 2008.


                    Investigations and Hotline Activity
Investigation of Fraud Allegations and Support for Prosecutions. The ExIm Bank
OIG, with the assistance of a senior investigator detailed from the FDIC OIG, has
undertaken to work with ExIm Bank personnel and the U.S. Department of
Justice (DOJ) to investigate allegations of fraud relative to ExIm Bank export
credit insurance and guarantee transactions, including assisting in developing
evidence to support civil and criminal fraud actions against the responsible
parties. Actions taken in this regard during the reporting period include:

     Obtaining and evaluating documentary evidence that has been forged or
     fraudulently modified in order to mislead ExIm Bank and its insured lenders
     and exporters regarding the quantity, description or value of goods claimed
     to have been shipped.

     Interviewing shippers and other parties providing logistical services for ExIm
     Bank supported credit transactions to confirm their actions and statements
     relative to transactions having potential fraud indicators.

     Meeting with senior DOJ officials to discuss case development strategies
     and support for their prosecution of specific charges.


                                         6

     Working with ExIm Bank staff and counsel to identify potentially fraudulent
     transactions during the application and underwriting process before
     commitments are issued or losses incurred.

     Working with ExIm Bank staff, counsel and personnel associated with
     Global Recovery Group (GRG), ExIm Bank’s collections contractor, to
     develop evidence supporting ongoing fraud investigations.

     Issuing Inspector General subpoenas to shippers, forwarders, finders,
     brokers, exporters and lenders to obtain documentary evidence in ExIm
     Bank transactions where fraud is suspected.

     Meeting with senior investigators at Immigration and Customs Enforcement
     (ICE) to discuss cooperation and joint case development strategies.

ExIm Bank OIG commenced investigative efforts on 9 discreet fraud referrals
during the reporting period, representing 25 individual transactions involving
losses. The loss associated with each individual transaction ranged between
$10,000 to more than $5 million. All matters remained pending as of the end of
the reporting period. One matter involving five direct transactions and
representing a los to ExIm Bank of approximately $8 million was referred to DOJ
by the OIG during the reporting period.

Hotline Referrals. The ExIm OIG Hotline email address and phone number for
delivering confidential reports of fraud, waste and abuse became functional in
January 2008. During the months of January, February and March of 2008, the
ExIm OIG received and responded to three hotline calls. Resolution of matters
raised in these calls remained pending as of the end of the reporting period.

Other Actions. The ExIm OIG undertook two additional investigative matters
during the reporting period. One involved an allegation of misconduct by an
ExIm Bank employee received as a referral from another federal OIG. The
second was a disputed claim with respect to a completed ExIm Bank export
credit transaction referred to the ExIm OIG by the Chairman of ExIm Bank
following his receipt of questions about the transaction by a member of
Congress. Both matters remained pending as of the end of the reporting period.


                             Regulatory Review

The OIG did not undertake any reviews of proposed legislation, rules or ExIm
Bank policies during the reporting period.




                                        7

                                Statistical Data
The statistical data required to be included in the Office of Inspector General
Semiannual Reports by the IG Act is omitted due to the recent initiation of
operations of the ExIm Bank OIG. Based upon the audit, evaluation and
investigative matters described above during the current reporting period,
statistical reporting will commence with the Semiannual Report for the period
ending September 30, 2008.




                                         8

                   CROSS-REFERENCE TO REPORTING REQUIREMENTS
                          OF THE INSPECTOR GENERAL ACT

Set forth below are cross-references of the reporting requirements prescribed by the identified
sections of the IG Act to the specific pages in this Semiannual Report where they are
addressed.


CITATION            REPORTING REQUIREMENTS                                          PAGE
Section 4(a)(2)     Review of legislation and regulations                           7

Section 5(a)(1)     Significant problems, abuses and deficiencies                   None

Section 5(a)(2)     Recommendations with respect to significant problems,           None
                    abuses and deficiencies

Section 5(a)(3)     Prior significant recommendations on which corrective           None
                    action has not been completed

Section 5(a)(4)     Matters referred to prosecutorial authorities                   7

Section 5(a)(5)     Summary of instances in which information was refused           None

Section 5(a)(6)     List of audit reports by subject matter, showing dollar value   3-4
                    of questioned costs and recommendations that funds be
                    put to better use

Section 5(a)(7)     Summary of each particularly significant report                 3, 5-6

Section 5(a)(8)     Statistical table showing number of reports and dollar value    None
                    of questioned costs

Section 5(a)(9)     Statistical table showing number of reports and dollar value    None
                    of recommendations that funds be put to better use

Section 5(a)(10)    Summary of each audit issued before this reporting period       None
                    for which no management decision was made by end of
                    reporting period

Section 5(a)(11)    Significant revised management decisions                        None

Section 5(a)(12)    Significant management decisions with which the Inspector       None
                    General disagrees




                                              9

If you suspect fraud, waste, abuse, or other misconduct at the 

     Export-Import Bank of the United States, contact us.





                 OIG HOTLINE

                  1-866-571-1801




      The OIG Hotline is available 24 hours per day.
      The caller can remain anonymous. Federal employees
    are protected from reprisal under the provisions of the
  Whistleblower Protection Act of 1989. For more information,
   see the MSPB publication “Questions and Answers About
                     Whistleblower Appeals.”

    If you prefer, you may send written complaints to:

                   IGhotline@exim.gov or

         Export-Import Bank of the United States 

                Office of Inspector General

                          Room 978

                811 Vermont Avenue, N.W.

                   Washington, DC 20571

